2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Le 2 al Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 ' ‘Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1135

DIGNITY HEALTH D/B/A
MERCY SAN JUAN MEDICAL CENTER,
Petitioner,
Vv.
EVAN MINTON,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PROVIDENCE ST. JOSEPH
HEALTH’S AMICUS CURIAE BRIEF IN SUPPORT OF PETITIONER in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 3249 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 16th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

pre | Kence. 0. Loo Qudeaw-h. Che

Notary Public (7 Affiant SITOZ

My Comm. Exp, September 6, 2023

 

 
